     9
b.




                    -
                                                N A T I O N A I - S( '1I:NC:E FOUNDATION
                                                 0F1'1('1: 01- INSIf'5C:TOK GENERAL
                                                   0 1 ~ 1 - 1 ( ' 1 < 01: IN\'ESTICATIONS

                                           ACTION MEMORANDUM

         TO:                                                   FILE NUMBER:                            DATE:
         Associate Inspector General Investigations            I00040009                               September 13,2001

         Subject:

         Action: Case Closeout


         1.    Allegation received on 28 April 2000 from -shat                                                 "             a
               Professor i n the Department t of
                                              a r -d                                         -!niversity,             may have
               misappropriated NSF grant money for personal reasons.

         2.    The investigation wasdeferred by NSF OIG to -university       Investigators and Counsel. The
               University completed an investigation which included several long depositions. In these
               depositions, d m i t t e d that several textbook purchases, which were identical to
               textbooks required in a family member's class at -University,      might appear inappropriate.
               However, the subject explained these purchases were based on the recommendation of the family
               member to assist the subject in learning complex mathematics and new computer programming
               techniques.

         3.    A11 findings including documents, correspondence and transcripts were forwarded to NSF OIG on
               8 January 200 1.

         4. U n i v e r s i t y found no Msconduct on the part of nd-       considers the matter closed.
            NSF OIG confirmed that o l u n t a r i l y returned all questionable funds to the NSF grant
            administered by m i v e r s i t y .

         5.    After reviewing the investigation conducted by -university,            NSF 01G concurs with the
               University's decision. This investigation is closed and no further action is being taken by OIG at
               this time.
